<html>
<title> - DISCUSSION DRAFT: NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION REAUTHORIZATION ACT OF 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     DISCUSSION DRAFT: NATIONAL TELECOMMUNICATIONS AND INFORMATION 
               ADMINISTRATION REAUTHORIZATION ACT OF 2018

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2018

                               __________

                           Serial No. 115-146
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov                     
                                        
                                 _________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-141                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbbcabb49bb8aea8afb3beb7abf5b8b4b6f5">[email&#160;protected]</a>                   
                           
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
    Prepared statement...........................................     5
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    41
    Prepared statement...........................................    42

                               Witnesses

Michael D. Gallagher, CEO, Entertainment Software Association....     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................    94
John Kneuer, President, JKC Consulting...........................    20
    Prepared statement...........................................    23
    Answers to submitted questions...............................    97
Joanne S. Hovis, President, CTC Technology and Energy............    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................    99

                           Submitted Material

Statement of the Computer & Communications Industry Association..    64
The Entertainment Software Association's Motion for Leave to 
  Intervene in Support of Petitioners............................    66
Statement of the Coalition for a Secure and Transparent Internet.    73
Statement of the Telecommunications Industry Association.........    74
Article entitled, ''Wired to Fail,'' Politico, June 28, 2015.....    80
Statement of Organizations fighting against human trafficking....    91
Letter of May 11, 2018, from Messrs. Shimkus and Ruiz to 
  Alphabet, Inc..................................................    92
Statement of the Telecommunications Industry Association.........    74

 
     DISCUSSION DRAFT: NATIONAL TELECOMMUNICATIONS AND INFORMATION 
               ADMINISTRATION REAUTHORIZATION ACT OF 2018

                              ----------                              


                         TUESDAY, JUNE 26, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:15 p.m., in 
room 2322 Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Bilirakis, Johnson, Flores, Brooks, Collins, 
Walters, Costello, Doyle, Welch, Loebsack, Ruiz, Eshoo, 
Butterfield, Matsui, McNerney, and Pallone (ex officio).
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Robin Colwell, Chief Counsel, 
Communications and Technology; Kristine Fargotstein, Detailee, 
Communications and Technology; Sean Farrell, Professional Staff 
Member, Communications and Technology; Adam Fromm, Director of 
Outreach and Coalitions; Elena Hernandez, Press Secretary; Paul 
Jackson, Professional Staff, Digital Commerce and Consumer 
Protection; Tim Kurth, Deputy Chief Counsel, Communications and 
Technology; Lauren McCarty, Counsel, Communications and 
Technology; Austin Stonebraker, Press Assistant; Evan Viau, 
Legislative Clerk, Communications and Technology; Jeff Carroll, 
Minority Staff Director; Jennifer Epperson, Minority FCC 
Detailee; Alex Hoehn-Saric, Chief Counsel, Communications and 
Technology, Jerry Leverich, Minority Counsel; Dan Miller, 
Minority Policy Analyst; Jon Monger, Minority Counsel; Andrew 
Souvall, Minority Director of Communications, Outreach and 
Member Services; C.J. Young, Minority Press Secretary.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order. The chair now recognizes 
herself for 5 minutes for an opening statement.
    And I want to welcome you to our hearing on reauthorizing 
the NTIA. This should be a very familiar topic to everyone in 
the room as NTIA reauthorization was also my very first hearing 
as chair of this subcommittee on February 2nd of 2017. Since 
then, we have held nine hearings related to the work of the 
NTIA, including an oversight hearing this spring with the new 
NTIA administrator.
    I'd like to thank our witnesses for being here. Ms. Hovis 
has been particularly generous with her time, as this is her 
third appearance before the subcommittee this Congress on NTIA-
related topics. We welcome Mr. Kneuer back to the subcommittee 
as well, and are pleased to welcome Mr. Gallagher as the fourth 
former NTIA administrator that we have heard from. We 
appreciate your perspectives on the agency and also what music 
you might have been listening to when the NTIA was last 
reauthorized. Of course, as somebody coming from middle 
Tennessee, I'll give you a little hint.
    Mr. Doyle was dancing the line dance in Pittsburgh to the 
music of Billy Ray Cyrus and ``Achy Breaky Heart.`` I know it.
    Mr. Doyle. I kind of doubt that but----
    [Laughter.]
    Mrs. Blackburn. I think I am probably right, and it's 
also--1992 is the year that Miley Cyrus was born. This shows 
you how long it has been.
    Make no mistake, the bill before us today is a rural 
broadband bill, and a very important one at that. Many of us 
hear over and over again about the desperate need to connect 
unserved Americans, and we are willing to invest toward that 
goal. But we must ensure good stewardship of those dollars. We 
know that without Federal involvement, rural areas will 
continue to be left behind. So the best thing that we can do to 
promote rural broadband is to help the Federal Government get 
its act together.
    Mr. Tonko and Mr. Lance's ACCESS BROADBAND Act would 
establish a new office within NTIA to do just that. As we saw 
at our last markup, this bill has strong bipartisan support. 
There is just one problem: without giving NTIA the resources it 
needs to start up and follow through on this new function, our 
subcommittee's vision will never be realized.
    And the same can be said of our bipartisan consensus that 
NTIA should be pulling in the latest information across the 
government to develop an accurate nationwide map of broadband 
service to guide deployment efforts. We first gave NTIA this 
task in the American Recovery and Reinvestment Act of 2009 and 
we reaffirmed the priority in RAY BAUM'S Act. Our vision was 
then enacted in the omnibus, but with funding to get the job 
started, more will need to be done.
    That's why we have targeted our discussion draft so 
squarely at giving NTIA both the authority and resources to get 
to work on these two bipartisan, urgently needed initiatives.
    Our discussion draft also asserts our leadership and 
priorities on other important areas in NTIA's purview, 
including internet governance, supply chain vulnerabilities, 
and getting our first responders the very best, most accurate 
location information when someone calls 911.
    And here is the alternative. For 26 years, we have funded 
NTIA without an authorization from this committee, and every 
time we fail here, we fail the jurisdiction of this committee. 
But with the level of consensus we have on our vision of NTIA's 
leadership on rural broadband, that would be a real shame, and 
I don't intend for us to let that happen.
    So at this time, I yield back the balance of my time and I 
yield to Mr. Doyle 5 minutes for an opening statement.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good afternoon and welcome to our hearing on reauthorizing 
the NTIA. This should be a familiar topic to everyone in the 
room as NTIA reauthorization was also my first hearing as chair 
of this subcommittee on February 2nd of 2017. Since then, we 
have held nine hearings related to the work of NTIA, including 
an oversight hearing this spring with the NTIA Administrator.
    I'd like to thank our witnesses for being here. Ms. Hovis 
has been particularly generous with her time, as this is her 
third appearance before the subcommittee this Congress on NTIA-
related topics. We welcome Mr. Kneuer back to the subcommittee 
as well, and are pleased to welcome Mr. Gallagher as the fourth 
former NTIA Administrator we have heard from. We appreciate 
your perspectives on the agency, and also what music you might 
have been listening to when the NTIA was last reauthorized. 
I'll give you a little hint, it was the year that Miley Cyrus 
was born.
    Make no mistake, the bill before us today is a rural 
broadband bill, and a very important one at that. Many of us 
hear over and over again about the desperate need to connect 
unserved Americans, and we are willing to invest toward that 
goal, but we must ensure good stewardship of those dollars. We 
know that without Federal involvement, rural areas will 
continue to be left behind. So the best thing we can do to 
promote rural broadband is to help the Federal Government get 
its act together.
    Mr. Tonko and Mr. Lance's ACCESS BROADBAND Act would 
establish a new office within NTIA to do exactly that. As we 
saw at our last markup, it has our strong bipartisan support. 
There's just one problem: without giving NTIA the resources it 
needs to start up and follow through on this new function, our 
subcommittee's vision will never be realized.
    And the same can be said of our bipartisan consensus that 
NTIA should be pulling in the latest information across the 
government to develop an accurate, nationwide map of broadband 
service to guide deployment efforts. We first gave NTIA this 
task in the American Recovery and Reinvestment Act of 2009, and 
we reaffirmed the priority in RAY BAUM'S Act. Our vision was 
then enacted in the omnibus, but with funding to get the job 
started, but more will be needed.
    That's why we have targeted our discussion draft so 
squarely at giving NTIA both the authority and the resources to 
get to work on these two bipartisan, urgently needed 
initiatives. And I hope we will be able to move it forward on a 
bipartisan basis.
    Our discussion draft also asserts our leadership and our 
priorities on other important areas in NTIA's purview, 
including internet governance, supply chain vulnerabilities, 
and getting our first responders the very best, most accurate 
location information when someone calls 911.
    Here is the alternative. For 26 years we have funded NTIA 
without an authorization from this Committee. And every time we 
fail here, we fail the jurisdiction of this Committee. But with 
the level of consensus we have here on our vision of NTIA's 
leadership on rural broadband, that would be a real shame, and 
I don't intend for it to happen.
    At this time, I will yield to the ranking member of the 
subcommittee, Mr. Doyle, for 5 minutes for an opening 
statement.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this hearing 
and thank you to the witnesses for appearing before us today.
    The National Telecommunications and Information 
Administration plays a critical role of advising the President 
on telecommunications and information policy issues.
    NTIA also manages federal spectrum usage and has been a key 
partner in freeing up more spectrum for commercial use. In 
doing so, they have generated tens of billions in revenue for 
the Federal Government--a mission that I strongly believe we 
can do more to help them accomplish.
    The AIRWAVES Act, a bipartisan bicameral bill that I've 
sponsored with Mr. Lance, along with Senators Gardner and 
Hassan, furthers this mission by freeing up additional federal 
spectrum for commercial use and paves the way for our nation's 
5G future. AIRWAVES frees up a combination of licensed and 
unlicensed spectrum to meet our nation's diverse spectrum 
needs.
    The bill also sets up a new mechanism to help deploy 
broadband in rural and underserved communities by directing a 
portion of the spectrum auction revenue to wireless broadband 
deployment.
    Madam Chair, this legislation is supported by a number of 
our colleagues on this committee on both sides of the aisle and 
I think it merits consideration by this subcommittee.
    I think this legislation could go a long way to 
accomplishing many of our shared goals. Going back to NTIA, the 
agency also administers grant programs to deploy broadband and 
other advance technologies, including the very successful $4 
billion BTOP broadband program.
    The lessons learned from this program led to the creation 
of Broadband USA, a one-stop shop that helps state, local 
governments, industry, and nonprofits obtain the tools they 
need to expand broadband deployment and promote digital 
inclusion.
    I am happy to see that the reauthorization draft before us 
includes Mr. Tonko's bipartisan ACCESS BROADBAND Act, which we 
voice voted out of this subcommittee 2 weeks ago.
    This legislation puts into statute many of the things that 
NTIA is already doing through the Broadband USA program. I am 
also happy to be a cosponsor of this legislation.
    This is a good start, but if we are going to help our rural 
and underserved communities address their broadband needs, we 
need to put our money where our mouth is and dedicate more 
dollars to solving this problem, particularly if we ever want 
to get people connected in rural and tribal communities as well 
as in Puerto Rico and other areas suffering from storm-related 
damage and outages.
    Ranking Member Pallone's LIFT America Act sets out $40 
billion in funds to help address our nation's broadband 
shortfalls. This is the kind of commitment we need if we want 
to address these problems, because if we continue to just sit 
here, these problems aren't going to solve themselves.
    The draft reauthorization also directs NTIA to continue 
working on the national broadband map, another Recovery Act 
program that, like BTOP, has run out of money. I agree with the 
majority that having accurate broadband maps is important both 
for the government and for consumers and communities. We can't 
solve a problem that we don't know the scale of. Looking at the 
mapping debacle in the FCC's Mobility Fund II's proceedings 
demonstrates the need for better data.
    The agency also represents and advocates on behalf of the 
United States internationally on matters of internet governance 
and telecommunications policy.
    In this time of fractured alliances and tumultuous trade 
policy, a globally unified free and open internet is more 
important than ever. NTIA, as our representatives to a number 
of these global internet governance organizations, needs to 
advance that message through what seems to be a great deal of 
noise from our government.
    NTIA also does critical spectrum research at the lab in 
Colorado, which we need to do more to support. They've also 
been a critical partner in housing and launching FirstNet, our 
nation's public safety broadband network, which I am happy to 
note every state has opted into.
    They have also done good work developing policies on a 
range of complex technical subjects including privacy, 
cybersecurity, and the digital economy.
    Madam Chair, I support this agency and I support giving 
this agency more resources to accomplish its many missions. I 
look forward to hearing from the witnesses and working with you 
on this legislation, and I yield back.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you, Madam Chairman for holding this hearing, and 
thank you to the witnesses for appearing before us today.
    I just want to start by saying that I'm concerned we don't 
have someone from the agency we are planning to reauthorize 
here to testify. While I appreciate the time and effort the 
witnesses have taken out of their schedules to appear before us 
today, I'm deeply concerned that without participation from 
representatives of the agency itself we will not be fully able 
to understand the needs of the agency and how best this 
subcommittee can help them in accomplishing their mission.
    That issue aside, the National Telecommunications and 
Information Administration plays the critical role of advising 
the President on telecommunications and information policy 
issues.
    NTIA also manages Federal spectrum usage and has been a key 
partner in freeing up more spectrum for commercial use, in 
doing so they have generated tens of billions in revenue for 
the Federal Government--a mission that I strongly believe we 
can do more to help them accomplish.
    The Airwaves Act, a bipartisan-bicameral bill that I have 
sponsored with Mr. Lance, along with Senator's Gardner and 
Hassan, furthers this mission by freeing up additional federal 
spectrum for commercial use and paves the way for our nation's 
5-G future. The Airwaves Act frees up a combination of licensed 
and unlicensed spectrum to meet our nation's diverse spectrum 
needs.
    The bill also sets up a new mechanism to help deploy 
broadband in rural and underserved communities, by directing a 
portion of the spectrum auction revenue to wireless broadband 
deployment.
    Madam Chairman, this legislation is supported by a number 
of our colleagues on this committee on both sides of the aisle, 
and I think it merits consideration by this subcommittee. I 
think this legislation could go a long way to accomplishing 
many of our shared goals.
    Going back to NTIA, the agency also administers grant 
programs to deploy broadband and other advanced technologies, 
including the very successful $4 billion B-TOP broadband 
program.
    The lessons learned from this program led to the creation 
of Broadband-USA, a one-stop shop that helps states, local 
governments, industry, and non-profits obtain the tools they 
need to expand broadband deployment and promote digital 
inclusion.
    I'm happy to see that the reauthorization draft before us 
includes Mr. Tonko's bipartisan Access Broadband Act, which we 
voice voted out of this subcommittee 2 weeks ago. This 
legislation puts into statute many of the things that NTIA is 
already doing through the Broadband USA program. I'm also happy 
to be a cosponsor of this legislation
    It's a good start, but if we are going to help our rural 
and underserved communities address their broadband needs, we 
need to put our money where our mouth is and dedicate more 
dollars to solving this problem, particularly if we ever want 
to get people connected in rural and tribal communities as well 
as in Puerto Rico and other areas suffering from storm related 
damage and outages.
    Ranking Member Pallone's Lift America Act sets out 40 
billion dollars in funds to help address our nation's broadband 
shortfalls. This is the kind of commitment we need if we want 
to address these problems. If we continue to just sit here, 
these problems aren't going to solve themselves.
    The draft reauthorization also directs NTIA to continue 
working on the National Broadband Map, another Recovery Act 
program that, like B-TOP, has run out of money. I agree with 
the majority that having accurate broadband maps is important 
both for the government and for consumers and communities. We 
can't solve a problem that we don't know the scale of. Looking 
at the mapping debacle in the FCC's Mobility Fund 2 proceeding 
demonstrates the need for better data.
    The NTIA also represents and advocates on behalf of the 
United States internationally on matters of internet governance 
and telecommunications policy.
    In this time of fractured alliances and tumultuous trade 
policy, a globally unified free and open internet is more 
important than ever. NTIA, as our representative to a number of 
these global internet governance organizations, needs to 
advance that message, through what seems to be a great deal of 
noise from our government.
    NTIA also does critical spectrum research at the lab in 
Colorado, which we need to do more to support. They have also 
been a critical partner in housing and launching First-NET, our 
nation's public safety broadband network, which, I'm happy to 
note, every state has opted into.
    They also have done good work developing policies on a 
range of complex technical subjects including: privacy, 
cybersecurity, and the digital economy.
    Madam Chairman, I support this agency, and I support giving 
this agency more resources to accomplish its many missions. I 
look forward to hearing from the witnesses and working with you 
on this legislation.

    Mrs. Blackburn. The gentleman yields back.
    Mr. Lance, you are recognized on Chairman Walden's.

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you very much, Chairman Blackburn, and our 
thanks to the distinguished panel for appearing before us 
today.
    Following the landmark bipartisan passage of RAY BAUM'S Act 
earlier this year, which reauthorized the FCC for the first 
time since 1990, we are now looking to reauthorize the NTIA for 
the first time since 1992. I commend the chairman for 
fulfilling the subcommittee's authorizing duties.
    I am pleased that the draft legislation also includes the 
ACCESS BROADBAND Act, which I introduced last year with 
Congressman Tonko and that we recently reported unanimously out 
of this subcommittee. The bill would create a new office within 
NTIA tasked with tracking all Federal broadband support 
programs across several agencies, and ensuring Federal 
broadband funds are used efficiently. It is important to 
recognize that Federal funds for broadband deployment are 
finite and must be focused on the areas of the country that 
need them the most. This new office will help make sure that 
agencies are not duplicating each other's efforts by 
overbuilding broadband infrastructure.
    While the standalone bill continues through the committee 
process, I believe it still makes sense also to include it with 
the reauthorization language before us today. During my 
conversations with the NTIA before and after introduction of 
ACCESS BROADBAND, the agency emphasized the need for additional 
resources to implement this new office properly. By 
reauthorizing NTIA for the first time in 26 years, we provide 
it with those additional resources.
    I thank the panel for being with us and look forward to 
discussing these and other important issues facing the NTIA. I 
ask unanimous consent from the chairman to enter a letter of 
support from the Computer and Communications Industry 
Association into the record.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Lance. Thank you, Chairman, and I yield back the 
balance of my time.
    [The prepared statement of Mr. Lance follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you Chairman Blackburn and thank you to our 
distinguished panel for appearing before us today.
    Following the landmark, bipartisan passage of RAY BAUMS Act 
earlier this year, which reauthorized the FCC for the first 
time since 1990, we are now looking to reauthorize the NTIA for 
the first time since 1992. I commend the Chairman for 
fulfilling the Subcommittee's authorizing duties.
    I am pleased that the draft legislation also includes the 
ACCESS BROADBAND Act, which I introduced last year with 
Congressman Tonko and that we recently reported unanimously out 
of this subcommittee. The bill would create a new office in 
within NTIA tasked with tracking all Federal broadband support 
programs across several agencies, and ensuring Federal 
broadband funds are used efficiently. It is important to 
recognize that Federal funds for broadband deployment are 
finite and must be focused on the areas of the country that 
need it the most. This new office will help make sure that 
agencies are not duplicating each other's efforts by 
overbuilding broadband infrastructure.
    While the standalone bill continues through the Committee 
process, I believe it still makes sense to include it with the 
reauthorization language before us today. During my 
conversations with NTIA before and after introduction of ACCESS 
BROADBAND, they have emphasized the need for additional 
resources to implement this new office properly. By 
reauthorizing NTIA for the first time in 26 years, we provide 
them with those additional resources.
    I thank the panel for being with us and look forward to 
discussing these and other important issues facing the NTIA.

    Mrs. Blackburn. Anyone seeking the balance of the time the 
gentleman yields back?
    And Mr. Pallone has not arrived. Is there anyone seeking 
Mr. Pallone's time? No one seeking Mr. Pallone----
    That concludes the member opening statements. The chair 
would like to remind members that pursuant to the committee 
rules, all members' opening statements will be made a part of 
the record.
    We want to thank all of our witnesses for being here today 
and taking time to testify before the subcommittee. Today's 
witnesses will have the opportunity to give opening statements, 
followed by a round of questions from members.
    Our panel for today's hearing will include the Honorable 
Michael Gallagher, former NTIA administrator and the current 
CEO of the Entertainment Software Association; the Honorable 
John Kneuer, former NTIA administrator and the current 
President of JKC Consulting; and Ms. Joanne Hovis, the 
President of CTC Technology and Energy.
    We appreciate each of you being here today and preparing 
your testimony for the committee. We will begin today with you, 
Mr. Gallagher.
    You are recognized for 5 minutes for an opening statement.

    STATEMENTS OF THE HONORABLE MICHAEL D. GALLAGHER, CEO, 
ENTERTAINMENT SOFTWARE ASSOCIATION; THE HONORABLE JOHN KNEUER, 
  PRESIDENT, JKC CONSULTING; JOANNE S. HOVIS, PRESIDENT, CTC 
                     TECHNOLOGY AND ENERGY

                 STATEMENT OF MICHAEL GALLAGHER

    Mr. Gallagher. Good afternoon, Chairman Blackburn and 
Ranking Member Doyle. My name is Mike Gallagher and I am the 
CEO of the Entertainment Software Association.
    Today, however, I am here in my capacity as the former NTIA 
administrator. I served as both Deputy Assistant Secretary and 
Assistant Secretary from the years 2001 to 2006.
    I am also delighted to be here at the side of my good 
friend and colleague, John Kneuer. He and I overlapped 3 years 
together. So, many of the accomplishments that the 
administration achieved in our space we did together and he was 
terrific as a team member when we were together and he was even 
better as an assistant secretary.
    Our country and NTIA are also richly well served by having 
David Redl as its new administrator. He has both the energy and 
the experience to drive the agency where we need to be in a 
very complex world in front of us.
    And before addressing substantive issues, I'd like to begin 
by saying I strongly endorse the committee's efforts to 
reauthorize NTIA and to focus the agency on the policy 
objectives that are core to the agency's competencies and 
expertise.
    NTIA is a low-cost high-impact agency that plays a vital 
role in expanding broadband access for all Americans and in 
protecting the missions of both the military and other 
government agencies as well as promoting the growth of the 
private sector through its spectrum management efforts. It also 
has a great tradition of doing so in a bipartisan manner, which 
is reflective of the draft that we are here to speak about 
today.
    My written testimony specifically points to several issues 
of very significant importance for NTIA leadership and that 
enjoy this committee's support.
    The first is the imperative rural broadband growth. It is 
important, but as a country, the benefits of broadband 
technology extend absolutely as far as possible to everyone and 
that includes taking continued efforts and redoubling efforts 
to make sure that that remains a key focus.
    Alongside of that and along with a great track record are 
the spectrum policy enhancements. Specifically, I point to 
three areas where NTIA has a history of accomplishing important 
work and leading the country and the world on how to deploy 
spectrum policy and, first, is in dynamic spectrum access.
    Ten years ago, in the 5 GHz band, we were able to double 
the amount of spectrum for wi-fi by using dynamic spectrum 
access technologies.
    That same approach could bear significant fruit in the 
years ahead for the country, and that's both for government and 
for private sector uses.
    It's also important that we identify additional unlicensed 
spectrum. We enjoy the fruits of unlicensed spectrum with all 
the devices that we carry with us. The continued growth of that 
is a top priority for NTIA and that's important for us to have 
it remain center of target.
    And then, finally, it's also important to maintain the 
focus on achieving exclusive private sector spectrum and having 
more of that come from the federal government to the private 
sector through auction because of new technologies that make 
that possible.
    I also fully endorse the committee's efforts too on the 
WHOIS database. It's critical important that the WHOIS database 
maintain a very high profile in all of our international 
engagements and that it is a top priority for law enforcement, 
it's a priority for copyright holders like the industry that I 
represent, and for other issues relative to cyber-crime.
    The national broadband map and the creation of the Office 
of Internet Connectivity and Growth are also tremendous steps 
forward. I fully support those.
    Having a central clearinghouse where these programs can be 
administered in a very efficient way, it makes great sense and 
it's of even higher importance.
    As forecasted by dozens of witnesses over the last 25 years 
before this committee, the world is increasingly connected. 
Broadband has gone from a vision of George Gilder to the 
reality that's in the hands of each of us and over 4 billion 
people around the world.
    That connected world presents tremendous opportunities and 
risks, and it's imperative that NTIA be focused and resourced 
to drive success for all of us in the years ahead.
    I commend the committee for its draft reauthorization 
legislation and I look forward to answering any questions.
    [The prepared statement of Mr. Gallagher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Kneuer, you are recognized for 5 minutes.

                    STATEMENT OF JOHN KNEUER

    Mr. Kneuer. Good afternoon, Chairman Blackburn, Ranking 
Member Doyle, Ranking Member Pallone, members of the 
subcommittee.
    It's an honor to be back here before you. My name is John 
Kneuer. From 2003 to 2007, it was my privilege to serve first 
as the Deputy Assistant Secretary and then as the Assistant 
Secretary at NTIA.
    Since leaving government in 2007, I've worked in the 
private sector as a board member, consultant, advisor to 
companies and institutions with an interest in domestic and 
international telecommunications.
    But I am appearing before you today in my personal capacity 
and my testimony and comments are my own.
    I would like to start by commending you, Chairman 
Blackburn, and the committee for undertaking the hard work of 
the reauthorization.
    In my experience, even though NTIA is explicitly an 
executive branch agency and the assistant secretary serves at 
the pleasure of the president, the exercise of government 
authority in the service of the citizenry is most effective and 
accountable when there is an established clarity of mission 
agreed upon by both the administration and the sources of its 
funding in the Congress.
    Regular reauthorization of executive branch agencies can 
provide that clarity and, following up on Mike's comments about 
David Redl, a proud alumni of this committee, I think that 
experience and his judgement--he's someone who's particularly 
well suited to navigate both the executive branch equities 
while responding to the appropriate oversight of Congress.
    This is my second opportunity to testify before this 
committee on the subject of the NTIA reauthorization. At last 
year's hearing, the focus of my testimony was on the dual 
responsibilities of NTIA as both the principal advisor of the 
president on telecommunications policy as well as the 
management of the Federal radio government spectrum.
    Because of the demands of this dual responsibility, NTIA 
has developed a specialized technical competency that provides 
expertise to policymakers across the government with interest 
in technical matters in everything from spectrum to internet 
governance to the broadband economy.
    But in addition to this technical expertise, NTIA has 
developed a valuable expertise in coordinating interagency 
equities in the service of broader government priorities. I 
believe it is this interagency policy coordination function 
that is most relevant to the draft legislation under 
consideration.
    While the legislation being considered covers a broad range 
of issues before NTIA--and I will endeavor to answer any 
questions on any of these subjects--for purposes of time I will 
focus my testimony on those sections of the legislation where I 
believe my experience is the most relevant.
    So from time to time, NTIA has been granted authority to 
administer large-scale infrastructure grant programs intended 
to advance access to communications networks for underserved 
communities. Sometimes these are targeted and limited in scope, 
like the public safety grant programs, and sometimes more 
widespread, as in the Broadband Technology Opportunities 
Program.
    However, in each instance, NTIA was required to coordinate 
with institutions across the government for either execution or 
measurement of the effectiveness of this program.
    This experience should enable NTIA to effectively 
coordinate the broadband map as well as the Office of Internet 
Connectivity and Growth.
    One of the challenges in effectively distributing broadband 
infrastructure funds is accuracy in measuring the extent to 
which broadband networks are already being deployed by market 
participants.
    Scarce resources should be deployed where there are actual 
gaps in coverage rather than in competition with private 
capital. But because different government agencies gather 
information in different formats from different sources, it 
makes sense to have a single repository for all this 
information that can be synthesized into a format that can be 
consistently applied and relied upon by various grant and loan-
issuing agencies across the government. I believe NTIA has the 
experience and the personnel to perform these functions.
    With regard to the sense of the Congress on cybersecurity 
and supply chain vulnerabilities, NTIA is particularly well 
suited to engage in these important matters that cut cross 
commercial interests as well as important government equities.
    By providing the perspective of industry into the 
interagency process, NTIA can help bridge the gap between the 
executive branch interests with national and homeland security 
responsibilities and keep private sector interest so that they 
all support our collective cyber defenses.
    Similarly, NTIA can serve as a conduit from government 
agencies with cyber responsibilities to the private sector to 
ensure that information flows in both directions to maximum 
effect.
    In addition, from its position within the Department of 
Commerce, NTIA has access to the broad resources of the 
International Trade Administration and the Bureau of Industry 
and Security on supply chain matters that implicate either our 
trade agreements or the intersection of national security and 
high technology.
    Finally, with regard to the collection and availability of 
WHOIS data, WHOIS data has been a foundational feature of the 
domain name system.
    As far back as 1982, before there was an internet, ARPANET 
had WHOIS requirements so people could understand who was 
supporting the network. WHOIS requirements were included in 
every memorandum of understanding between NTIA and ICANN from 
1998 to 2016.
    With the transition of the IANA contract, timely, 
unrestricted, and accurate WHOIS remains a feature of ICANN's 
process. The sense of the Congress underscores this important 
role.
    Historically, NTIA has been the U.S. government entity in 
charge of protecting WHOIS obligations and I believe NTIA 
remains the proper repository for this policy coordination and 
advocacy before ICANN.
    Again, I appreciate the opportunity to testify. I will 
remain available to the committee throughout this process as 
you consider the authorization and I will look forward to your 
questions.
    [The prepared statement of Mr. Kneuer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Ms. Hovis, you are recognized.

                   STATEMENT OF JOANNE HOVIS

    Ms. Hovis. Thank you, Chairman Blackburn, Ranking Member 
Doyle, members of the subcommittee.
    I am Joanne Hovis and I am President of CTC Technology and 
Energy. I am also CEO of the Coalition for Local Internet 
Choice, a nonprofit entity that brings together public and 
private entities that believe solving our nation's broadband 
challenges requires a full range of options including locally-
driven efforts to deploy networks and create public-private 
partnerships.
    My work focuses on assisting state, local, and tribal 
government to build broadband strategy and plans and on helping 
them to develop public-private collaborations that improve 
broadband infrastructure and services, address affordability 
challenges, and provide digital education to enable members of 
the community to maximize the benefits of the broadband 
internet in their lives.
    I've encountered NTIA in my state and local level broadband 
work throughout the country for over a decade. My comments 
today focus on the important and successful role NTIA has 
played in broadband policy and expanding broadband service and 
device availability and in expanding digital literacy.
    As you consider this reauthorization, I encourage you to 
think expansively about NTIA's important role in building 
broadband capabilities in infrastructure, going forward.
    NTIA has this important role to fill in improving the 
broadband environment nationally but it also has unique 
expertise and experience within the Federal Government to do so 
and this role is essential because our work of expanding 
broadband access is far from done.
    Large areas of rural America as well as significant 
sections of our urban communities lack adequate affordable 
broadband. Addressing these gaps in access and opportunity 
requires expansive thinking about funding new infrastructure 
and capabilities, enabling new educational and inclusion 
programs, and supporting access to computers and other 
broadband-enabled devices.
    For that reason, I commend you on the current 
reauthorization efforts as well as on the ACCESS BROADBAND Act, 
the LIFT America Act, and other pending legislation focused on 
access, urban deserts, and rural broadband funding.
    There is a critical role for Federal, state, and local 
entities in solving these problems and filling these gaps as 
well as for private sector companies and other stakeholders, 
and NTIA is uniquely experienced at creating bridges among all 
these entities.
    As is discussed in greater detail in my written comments, 
NTIA has really done a terrific job over many years in grant 
making, in convening stakeholders, in stimulating public-
private collaboration and partnerships, and in providing 
technical assistance through the Broadband USA program.
    I refer to my written testimony, which goes into detail on 
many of those topics, but let me share with you, based on my 
personal experience, some of why I think NTIA's track record in 
building funding programs to support expansion of broadband, 
particularly in rural areas, the track record is very sound.
    In particular, through the BTOP program, which was 
referenced by my fellow panellists here, there was an 
impressive, laudable, and frankly, less recognized--in 
Washington than it deserved--effort by NTIA.
    In a short period of time after passage of the Recovery 
Act, the team at NTIA built a robust and proven grant program 
and then successfully administered it in subsequent years with 
remarkably little controversy.
    In fact, the program and NTIA's administration of it was 
welcomed with enormous enthusiasm and appreciation in 
communities impacted by it throughout the country.
    This enthusiasm resulted in part from the extraordinary 
hunger for better broadband in significant parts of our country 
and in part from the way that NTIA had consulted with 
communities, companies, first responders, educators, and other 
stakeholders and built a program that was optimized to confer 
the greatest possible benefit in unserved and underserved 
areas.
    At the same time, the program is also thoughtfully and 
efficiently designed to focus the federal investment on middle 
mile infrastructure to key anchor institutions such as 
firehouses, police stations, and remote government facilities 
while incenting private sector investment in the last mile to 
reach homes and businesses.
    The vision was successfully realized in significant parts 
of the country. I visited or observed dozens of the projects 
that NTIA funded in this way and let me share just a couple of 
quick examples in my brief remaining time.
    An example that may be of real interest is rural Garrett 
County in far western Maryland, a remote Appalachian community 
deeply impacted by the decline in the coal economy, which has 
struggled to get broadband in a number of its remote 
mountainous areas and, as a result, has also struggled to 
attract and retain businesses and teleworkers.
    The county's current success in attracting a private 
partner to fund and deploy last-mile residential service in the 
most remote and inaccessible mountain areas. It's testimony, in 
part, to NTIA's efforts. NTIA granted funding to a state-led 
middle-mile network that reached many of the most remote 
schools, libraries, and public safety facilities in the state, 
and county leaders then further invested in additional fiber 
both to reach additional remote schools and to serve as a 
platform for last-mile deployment.
    In 2015, a private partner agreed to leverage some of that 
fiber and local funding in order to build a fixed wireless 
network that will provide the potential of service to up to 
3,000 currently unserved homes and hundreds of homes are 
already receiving service under this network.
    I am grateful for your attention and I refer you to my 
written testimony for more examples.
    Thank you so much.
    [The prepared statement of Ms. Hovis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady yields back, and before we 
move to questions we will now recognize Mr. Pallone for his 
opening.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairman. The National 
Telecommunications and Information Administration, or NTIA, 
plays a critical role in establishing and coordinating 
communications policies for the administration both 
domestically and internationally.
    Given the importance of the agency, I am disappointed that 
my Republican colleagues have circulated a discussion draft 
that does little more than reintroduce Congressman Tonko's 
ACCESS BROADBAND Act, which the subcommittee recently marked up 
and has already reported to the full committee.
    Mr. Tonko's bill establishes an office in NTIA to 
streamline the management of Federal broadband resources and I 
hope that this is not an effort to strip this bill away from 
Mr. Tonko, who worked hard to advance this important 
legislation.
    Besides the contribution from Mr. Tonko, the majority's 
bill fails to provide NTIA the authority and direction it needs 
to address America's 21st century needs.
    The administration acknowledges the need for broadband 
infrastructure investment. But President Trump and the 
Republican majority have failed to act.
    We must think big in reauthorizing the NTIA. In May of last 
year, committee Democrats introduced the LIFT America Act, 
which provides $40 billion over 5 years to deploy secure and 
resilient broadband to 98 percent of the country through a 
program administered by the NTIA.
    The LIFT America Act ensures that every state has access to 
funds to help bridge the digital divide that remains in too 
many parts of this country, both rural and urban.
    As the Internet of Things continues to expand, we should 
increase NTIA's efforts to address cybersecurity threats. We 
must ensure that the Trump administration's alienation of our 
international allies does not hamper our ability to protect an 
open internet and the free flow of information from Russian and 
Chinese efforts at the International Telecommunications Union 
and other forums.
    We must also ensure that the NTIA has the resources and 
authority needed to improve public safety communications. 
Democratic members have actively engaged on many of these 
issues and we should consider them as part of any 
reauthorization.
    Now, while limited on substance, the discussion draft does 
increase NTIA's authorization level to the last Obama 
administration request. But this does not reflect the 
additional tasks and duties we now seek, and unfortunately, the 
most important witness for this hearing--Administrator Redl--is 
not here to answer questions regarding whether the NTIA has the 
authority and resources necessary to achieve its current 
mission, much less the task it should be pursuing.
    So before we move forward with the reauthorization, we need 
the current administration's views on the draft legislation.
    And finally, Madam Chairman, as a result of the Trump 
administration's policies, thousands of children are still 
separated from their parents and we still do not have any 
sufficient answers about how they're going to reunite--reunify, 
I should say, these families.
    Parents have been left wondering where their children are, 
whether they are being treated OK, and when they will see them 
again. Efforts of parents seeking to call their children to 
hear their voices and comfort them have been stymied because of 
unconscionable rates charged at the detention centers, and I 
visited one of these on Father's Day in Elizabeth, New Jersey.
    And according to news reports, phone calls at one facility 
cost $8 a minute, which I think is outrageous. I think it's bad 
enough that the Trump administration separated more than 2,300 
children from their parents, but now through these detention 
facilities asylum seekers are being extorted. These outrageous 
rates are one more insult as desperate parents try to weave 
their way through the bureaucracy to find their children and 
it's inexcusable.
    So I would call on the Trump administration to provide 
detained parents free phone calls to reach their children. It's 
the least they can do for a policy that never should have been 
instituted in the first place.
    I would hope the administration would take this action on 
its own but, failing that, I will be introducing a bill today 
directing the FCC to reinstate the recent inmate calling order 
which covers immigration detention facilities and to promulgate 
rules to enable detained parents to call their children without 
charge.
    I would also like to reiterate the request that every 
Democratic committee member made last week--they will hold a 
hearing on how these children are going to be reunited with 
their parents.
    The Energy and Commerce Committee's oversight 
responsibility must include holding a hearing on this 
catastrophic policy and implementation failure, and I think 
that Secretary Azar should testify before us.
    I thank you, Madam Chairman, for letting me use this time 
and I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    The National Telecommunications and Information 
Administration (NTIA) plays a critical role in establishing and 
coordinating communications policies for the Administration 
both domestically and internationally.
    Given the importance of the agency, I am disappointed that 
my Republican colleagues have circulated a discussion draft 
that does little more than reintroduce Congressman Tonko's 
ACCESS BROADBAND Act, which the subcommittee recently marked up 
and has already reported to the full committee. Mr. Tonko's 
bill establishes an office in NTIA to streamline the management 
of federal broadband resources. I hope that this is not an 
effort to strip this bill away from Mr. Tonko who worked hard 
to advance this important legislation.
    Besides the contribution from Mr. Tonko, the majority's 
bill fails to provide NTIA the authority and direction it needs 
to address America's 21st Century needs.
    The Administration acknowledges the need for broadband 
infrastructure investment but President Trump and the 
Republican Majority have failed to act. We must think big in 
reauthorizing the NTIA.
    In May of last year, Committee Democrats introduced the 
LIFT America Act, which provides $40 billion over 5 years to 
deploy secure and resilient broadband to 98 percent of the 
country through a program administered by the NTIA. The LIFT 
America Act ensures that every State has access to funds to 
help bridge the digital divide that remains in too many parts 
of this country--both rural and urban.
    As the Internet-of-Things continues to expand, we should 
increase NTIA's effort to address cybersecurity threats. We 
must ensure that the Trump Administration's alienation of our 
international allies does not hamper our ability to protect an 
open Internet and the free flow of information from Russian and 
Chinese efforts at the International Telecommunications Union 
and other forums. We must also ensure that the NTIA has the 
resources and authority needed to improve public safety 
communications. Democratic Members have actively engaged on 
many of these issues and we should consider them as part of any 
reauthorization.
    While limited on substance, the discussion draft does 
increase NTIA's authorization level to the last Obama 
Administration request, but this does not reflect the 
additional tasks and duties we now seek. And, unfortunately, 
the most important witness for this hearing, Administrator 
Redl, is not here to answer questions regarding whether the 
NTIA has the authority and resources necessary to achieve its 
current mission much less the tasks it should be pursuing.
    Before we move forward with a reauthorization, we need the 
current Administrator's views on the draft legislation.
    Finally, Mr. Chairman, as a result of the Trump 
Administration's policies, thousands of children are still 
separated from their parents, and we still do not have any 
sufficient answers about how they are going to reunify these 
families. Parents have been left wondering where their children 
are, whether they are being treated OK, and when they will see 
them again.
    Efforts of parents seeking to call their children--to hear 
their voices and comfort them--have been stymied because of 
unconscionable rates charged at the detention centers. 
According to news reports, phone calls at one facility cost $8 
a minute--that's outrageous!
    It's bad enough the Trump Administration separated more 
than 2,300 children from their parents, but now, through these 
detention facilities, asylum seekers are being extorted. These 
outrageous rates are one more insult as desperate parents try 
to weave their way through the bureaucracy to find their 
children. It is inexcusable.
    I call on the Administration to provide detained parents 
free phone calls to reach their children. It is the least they 
can do for a policy that never should have been instituted in 
the first place. I would hope the Administration would take 
this action on its own, but failing that, I will be introducing 
a bill today directing the FCC to reinstate the recent inmate 
calling Order--which covers immigration detention facilities--
and to promulgate rules to enable detained parents to call 
their children without charge.
    I would also like to reiterate the request that every 
Democratic Committee member made last week that we hold a 
hearing on how these children are going to be reunited with 
their parents. It would be a complete abdication of this 
Committee's oversight responsibility for Republicans to refuse 
to hold a hearing on this catastrophic policy and 
implementation failure. Secretary Azar must testify before this 
Committee.
    Thank you, I yield back.

    Mrs. Blackburn. The gentleman yields back, and this 
concludes our statements from our witnesses.
    And at this point, we will move into the Q and A portion of 
our hearing and I recognize myself for 5 minutes.
    At our very first NTIA reauthorization hearing, I had 
commented about my concern of the lack of coordination when it 
came to Federal resources in different agencies that were 
trying to implement components to address broadband 
infrastructure or access adoption rates, research, things of 
that nature.
    And, of course, our draft legislation includes the Office 
of Internet Connectivity. So what I would like to hear from 
each of you is, how do you think this office can and should 
work to coordinate all of these efforts?
    And Mr. Gallagher, we'll start with you.
    Mr. Gallagher. Thank you, Madam Chairman. So, for purposes 
of bringing all of this under one roof or putting it in one 
place, then having an inventory of the resources that are being 
spent right now is vitally important.
    NTIA has accomplished similar interagency missions in the 
past. OSM, the spectrum agency, works that way. The way it 
administers its duties for ICANN are also done in interagency 
coordination basis.
    There is a DNA component where their capabilities are prone 
to be able to do this very well. It's also important as a 
taxpayer that we see how much the dollars are, where they're 
going, and then what's being achieved with them, and that can 
only be done when there's one single view that's administered 
from over the top.
    The encouragement that I would add as this discussion 
evolves is that there's a strong leadership role from the White 
House and from OMB.
    The Office of Management and Budget has significant 
influence and impact on all of the agencies. So NTIA, during 
the time when I was there, when we would have challenges, it 
wasn't because of lack of will at the Department of Commerce or 
a lack of competence of the team that was there.
    It was because other agencies were reluctant to participate 
because it wasn't in their mission to do so or in their 
interests, and I think aligning those interests through 
guidance to those agencies, having the White House role be 
strong, having the role of inventory clarification value to the 
taxpayer, moving that through as part of the prism that this 
would be looked through, would be steps in the right direction.
    Mrs. Blackburn. Thank you. Mr. Kneuer.
    Mr. Kneuer. I agree with all of that. The challenge is that 
the sources of funds reside in different departments sometimes.
    So you have got the RUS in the Department of Agriculture. 
We've got NTIA and others that issue grants. You've got--even 
in Agriculture beyond RUS. Sometimes in DHS there are emergency 
preparedness funds that wind up being devoted to broadband 
services.
    Again, I think this gets to the point of the importance of 
reauthorization. Giving NTIA the responsibility and ability to 
bring into one place all of the different ways that the 
government measures all of the different ways the government is 
spending money doesn't just help them more efficiently deploy 
the money through the executive branch.
    But it gives the Congress visibility into how the money is 
being spent, is it getting to the part of the communities that 
it needs to. So you can make future appropriations 
authorization decisions based on affected information and data.
    So, again, I think NTIA has the resources and experience of 
doing that. Having it in NTIA is the most logical of any other 
places that you could put it.
    In terms of using that information inside the executive 
branch to make the right decision, I agree with Mike--a lot of 
that has to come from OMB riding above any of the individual 
agencies.
    But all of those decisions will be better targeted if you 
have better information. And the way to do that, I think, is 
this legislation.
    Mrs. Blackburn. OK. Good. Ms. Hovis.
    Ms. Hovis. Thank you, Chairman Blackburn. I'm very much in 
agreement here with my fellow panelists about the incredible 
importance of this set of functions and NTIA's ability to do so 
and its ability to bring to bear experience in order to do so.
    And I could say that we have all noted the same challenges 
in this very large and complex entity that is the Federal 
Government with multiple entities charged with different kinds 
of responsibility for funding, mapping, engaging what is 
happening with regard to broadband.
    I think that better and more comprehensive and more 
centralized collection of data and accurate data and granular 
data would be a massive, massive contribution to building 
important information and understanding of what is actually 
happening with regard to broadband.
    And if we are able to understand through a central entity, 
such as NTIA, not only what all the existing funding programs 
are and what they are funding and where, but also where there 
has been verification and enforcement that that funding was 
used as intended and that the capabilities that were intended 
to be funded by the Federal Government were actually deployed 
as well as accurate and granular mapping. It would be an 
enormous contribution and enable development of very good 
policy.
    Mrs. Blackburn. The gentlelady yields back. Mr. Doyle, you 
are recognized for 5 minutes.
    Mr. Doyle. Thank you, Madam Chair. Mr. Kneuer and Mr. 
Gallagher, as former NTIA administrators, so I am just curious 
how you think the NTIA will be navigating upcoming global 
internet governance discussions such as the ITU's upcoming 
conference in Dubai.
    Given our administration's strained relationship with our 
allies, its increasingly hostile relationship with China, and 
our relationship with Russia, which I am really not sure how to 
characterize, how do you think that's going to go?
    Mr. Kneuer. Traditionally, the ITU and some of the telecom 
issues really have been driven by the technical staff and, with 
a few exceptions, the----
    Mrs. Blackburn. Mr. Kneuer, can I get you to talk directly 
into that mic? Thank you.
    Mr. Kneuer. Yes. Sorry. The broader geopolitical issues 
rarely, but not never, get involved. I think the ability of 
NTIA to collect the technical expertise of various government 
agencies, so whether it's been the Defense Department or the 
intel communities or others who rely on spectrum and 
telecommunications engage in sort of robust bilateral 
discussions with our allies and with interested parties has 
been sort of the way this has gone.
    So even though the meetings themselves may take place in 
Dubai, our diplomats and NTIA staff have been, typically, in 
pretty constant contact with their counter parties in other 
governments.
    So it's not to say that the geopolitical challenges don't 
enter into these multilateral negotiations. These are, after 
all, very often U.N.-sponsored delegations.
    But I think the technical matters typically speak for 
themselves and historically and, hopefully, ideally the larger 
geopolitical issues stay in the background.
    Mr. Doyle. Thank you. Ms. Hovis, given the success of the 
Obama administration's BTOP program, do you think that the type 
of investments laid out in Ranking Member Pallone's LIFT 
America Act or the share of the spectrum auction revenue set 
aside for wireless broadband deployment by the AIRWAVES 
legislation would significantly contribute to closing the 
broadband divide in this country.
    And at what point do you imagine we will close the 
broadband divide in this country if we simply continue on our 
current path?
    Ms. Hovis. On our current path, we are not going to close 
the divide and we may actually, in some areas, exacerbate it 
because the realities of the economics of broadband are that 
private investment funds will go where they will see the 
greatest return.
    That's how the private sector works. It's how we want it to 
work and how we want our system to work, and that means that we 
are likely to see increased investment in enhanced 
capabilities--5G, more deeper fiber, et cetera--in certain 
kinds of suburban and urban areas, in certain urban areas with 
high income levels, average income levels, for example, but not 
in rural areas, not in areas of low population, and not in 
certain areas of low income.
    And as a result, we may actually see a significant 
exacerbation of the digital divide over time. So yes, I very 
much agree that the LIFT America Act and certain kinds of 
appropriation, the funding for rural broadband and for solving 
urban deserts would be enormously helpful and I think, in fact, 
it's critical.
    And the track record has been very, very solid and I hope--
my example of the Appalachian community in western Maryland 
that I talked about is one of hundreds of examples, I think, of 
communities that have been enormously benefited by that 
investment and by the way it was administered by NTIA and I 
certainly personally hope we'll see a good deal more because I 
spend a lot of my time on the road in rural America and I see 
enormous, enormous gaps that we have a long way to go in 
filling.
    Mr. Doyle. Thank you very much. Mr. Gallagher, I know 
you're here in your capacity as a former NTIA administrator, 
but you're always the CEO of the Entertainment Software 
Association, which represents the video game industry--an 
industry that's now larger than the film and music industries 
combined.
    Video games these days outperform the biggest Hollywood 
blockbusters and, increasingly, video games are downloaded 
online, and online games are become spectator events and the 
future of the industry seems to be shifting from consoles to 
the cloud, all of which rely on a free and open network that is 
fast, has low latency and high capacity.
    I know ESA filed in federal court seeking to intervene in 
the case against the FCC's repeal of net neutrality rules. That 
filing said, ``absent these protections, ESA and its member 
companies will have no effective legal recourse against 
broadband provider conduct that impairs consumers' online video 
game experiences.''
    So my question is whether you and your association oppose 
the repeal of the net neutrality rules as your association's 
legal filing indicates and whether you support restoring those 
rules, as your filing indicates, as I am trying to do with my 
CRA resolution.
    Mr. Gallagher. First, I really enjoyed the introduction to 
the question.
    [Laughter.]
    Terrific. And then as to the specifics on net neutrality, 
yes, we filed the motion to intervene in that litigation 
because it's important for us, on behalf of our members, to 
make sure that we do have an open and free and high capacity 
and high quality internet available for gamers and game makers. 
We've been clear about that for years.
    And what we've also seen is that the pendulum swinging back 
and forth between whoever controls the pen at the FCC causes 
uncertainty for investors.
    It causes uncertainty for those who are seeking to make the 
economy of tomorrow happen in a digital way, and the world is 
very much connected. These opportunities need to be present and 
thriving here in the U.S.
    What we've done is----
    Mr. Doyle. Madam Chair, I see our time has expired. I would 
like to ask unanimous consent to add ESA's court filing to the 
record.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Mr. Lance, you're recognized for 5 minutes.
    Mr. Lance. Thank you, Chairman. Mr. Gallagher and Mr. 
Kneuer, you both mentioned in your testimony the importance of 
giving the NTIA more resources. Could you please expand on 
this, using your own experience leading the agency and in the 
context of how its mission and duties have evolved since the 
last time it was reauthorized?
    I am also interested specifically in your perspective on 
whether or not these additional resources are necessary to 
implement the Office of Internet Connectivity and Growth as the 
NTIA has indicated to me?
    Mr. Kneuer.
    Mr. Kneuer. So I think there is adequate staffing. As the 
BTOP program winds down, those moneys are spent. The staff that 
were administering that are the same staff that I think would 
likely be involved in the new office contemplated by this 
legislation.
    I think the important thing in terms of the amount of 
funding--and I do not have visibility into the current budgets 
of NTIA and I wouldn't want to speak for precise dollar 
figures--but the way to think about it is that all of the money 
that we are putting into NTIA to drive broadband really needs 
to be thought of as seed capital.
    By having better information, we are going to more fully 
leverage the amount of money that comes from whatever variety 
of sources there are.
    The economic growth and productivity gains that come from 
broadband being deployed in communities that don't otherwise 
have access to it, that has to be kept in mind and focused as 
the objective for budgeting.
    So while I don't have the great sense of what the precise 
numbers are, I think the exercise that needs to be undertaken 
is making sure that the money that we spend we can look at and 
find a direct linkage to either--it's going to more than be 
offset by savings in the efficient allocation of other 
resources or it's going to generate economic growth far in 
excess of the money that we devote to the project.
    Mr. Lance. Thank you. Mr. Gallagher.
    Mr. Gallagher. I would focus on three areas, and the 
overarching focus is where do we need NTIA to take us over the 
next 10 years, if that's the relevant time frame for the 
committee, and then does it have the resources to accomplish 
those key focuses.
    The three that I would point to, one is international, two 
is OSM, or the Office of Spectrum Management, and third is a 
coordinator role across the Federal Government.
    And the roles have changed. Now, many of these functions 
remain the same. They have the same office names as when I was 
there, as when John was there, but their challenges are quite 
different.
    Everything that happens now is global. Everything that our 
industry is engaged in is worldwide in nature.
    That's the thinking process, and when we were at the 
Department of Commerce, one of the key talking points and 
things that we'd repeat, 95 percent of the world's customers 
live outside the United States.
    So NTIA should be focused and be resourced to be very 
effective in that environment. One thing I would add to this is 
it's been brought to my attention that a level of the position 
within the Department of Commerce oftentimes can be problematic 
in dealing with foreign governments--that if there was a higher 
level to the position like under secretary as opposed to 
assistant secretary, that would create greater impact for 
Secretary Redl as he goes about his duties.
    Second is OSM. I believe the Office of Spectrum Management 
is using the very same equipment that they used when I was 
there 10 years ago.
    The return we've gotten from sound spectrum policy is 
enormous. More investment and then making sure they have the 
resources to be even better at their job is money well spent.
    And then the final point is on this coordination role. The 
more we ask NTIA to do in that regard you need to make sure 
that there's enough resources--primarily, people--to make sure 
that that happens, and again, I look to Office of Management 
and Budget and this committee to set where those levels are.
    Mr. Lance. Thank you very much to the distinguished panel 
and, Chairman, I yield back 46 seconds.
    Mrs. Blackburn. The gentleman yields back. Mr. Loebsack, 
you're recognized.
    Mr. Loebsack. Thank you, Madam Chair. I really appreciate, 
obviously, the testimony today. I am an Iowan. I've got 24 
counties--a lot of rural areas. I don't know what the total 
square miles is. It's something like 12,000 or so. It's a 
pretty big area--and I get around every weekend, and I know for 
a fact that our coverage in Iowa isn't anything like what the 
FCC says it is officially.
    So I've been very interested in making sure that we have 
accurate data when it comes to where broadband is deployed 
around the country.
    And there is bipartisan and bicameral agreement that the 
maps the FCC is relying on now are flawed and quite inaccurate, 
and I did introduce the bill, the Rural Wireless Act, with my 
good friend from Pennsylvania, Ryan Costello, to improve the 
reliability and the validity of the data needed to create the 
maps and I am really happy it was passed--included in the RAY 
BAUM'S Act that the President signed into law earlier this 
year.
    So I am really hoping that better maps are on the horizon. 
A lot of folks in Iowa, all across the country in rural areas, 
are hoping that better maps are on the horizon.
    Hope isn't enough. I am glad the discussion draft reaffirms 
the NTIA's role in producing a national broadband map that's 
accurate.
    However, we may need to work together as the bill 
progresses to ensure that we are doing all that we can to 
ensure that the maps are as reliable as possible.
    And, Mr. Gallagher, just a couple of quick questions for 
you today. I do appreciate your comments and your testimony 
about the need for more granular data, particularly in rural 
areas where a census block isn't necessarily the right 
geographic measurement to reflect the realities of broadband 
availability.
    So, Mr. Gallagher, I would just like to ask you first what 
obstacles might NTIA face in collecting such granular data?
    Mr. Gallagher. Well, the first obstacle is it may not exist 
by doing it, like, household to household and so looking for 
the sourcing on the data is really important.
    One area that I would look to for all rural areas, not just 
in Iowa but around the country, is you do have state Public 
Utility Commissions that are in charge of wired communications 
and increasingly have been involved in deployment of public 
safety networks and other areas where their maps may be 
supplemental and offer more granular data because it is their 
role to fundamentally be local.
    Mr. Loebsack. Do you have any other ideas--that was my 
second question, actually--ideas about how to produce better 
data?
    Mr. Gallagher. I think that there are increasingly 
applications and technologies that are developed that do 
miraculous things for very low cost and those--a survey of 
those mapping technologies, a survey of elements that follow 
the development of broadbands so, like, derivative types of 
activities, would be able to develop the contours of where 
broadband exists if you know what people are doing.
    Like, for example, if they're playing Pokemon Go they must 
have access to the internet because their phones are 
connected--those types of things might be where the data could 
be more practically extracted at a lower cost.
    Mr. Loebsack. OK. That's great.
    Well, that's pretty much what I have as far as questions 
and comments. This is something I've been beating sort of like 
a dead horse for quite a while.
    The chair knows that and--but we do have good bipartisan 
support for this and I want to make sure that the FCC does the 
right thing so that we know where the heck we have coverage and 
where we don't.
    And I don't want to create any false illusions out there, 
or false expectations, if you will, on the part of folks in 
Iowa and all around rural America.
    When somebody says, oh, there's 96 percent coverage, we 
know there's not, and so we have to make sure that we have some 
truth in advertising when it comes to finding the ways to 
measure this and get the accurate data really, really quickly.
    So thank you very much. I yield back my time.
    Mrs. Blackburn. The gentleman yields back, and I just got a 
notice that votes will come sometime between 3:10 and 3:25 so 
we will try to complete our hearing before then.
    Mr. Johnson, you're recognized for 5 minutes.
    Mr. Johnson. Thank you, Madam Chair, and thank you for 
holding such an important hearing.
    NTIA has not been reauthorized since 1992 and it's 
essential that it has the funding and tools it needs to 
accomplish its objectives. I am particularly pleased to see the 
components relating to the broadband mapping and deployment 
issue.
    My legislation, the Mapping Now Act, which was included in 
the omnibus, reasserts NTIA's authority on broadband mapping. 
It is essential that we have an accurate map showing areas that 
are unserved and underserved so that we know where available 
resources should be focused.
    This discussion draft tasks NTIA with facilitating more 
accurate granular maps of broadband coverage with input from 
the FCC and other federal resources in addition to states and 
public-private partnerships.
    NTIA is in a good position to compile data from multiple 
sources, not just the FCC's Form 477 data, that would help 
create a more accurate and complete picture of broadband 
coverage.
    I am hopeful that this legislation would provide NTIA with 
necessary funds and authority to work with other agencies and 
implement creative solutions for broadband mapping and to break 
down the barriers to broadband deployment.
    So to my questions--when NTIA was first charged with 
creating the national broadband map under the 2009 American 
Recovery and Reinvestment Act, the data on the map was not 
always correct.
    In many cases, that is because it was reported on a state-
by-state basis and each state had a different way in which it 
collected the data.
    This often led to the data being unreliable. For example, 
at one point it showed that one state in the Northeast had full 
satellite coverage but the next state that shared almost the 
same latitude and longitude had no satellite coverage.
    Now, I don't think it's the case that Vermont and New 
Hampshire can be so completely different in terms of their 
ability to be covered by satellite.
    So my question is this, and we'll just go down the line 
starting with you, Mr. Gallagher. How can NTIA ensure that the 
mistakes from the past are not repeated with any new mapping 
efforts?
    Mr. Gallagher. The first place to start is to ask the 
question, put out an NOI saying, all right, this was done in 
the past--what are the mistakes--develop an inventory of those 
and an understanding, and then go through and systematically 
can be done and, of course, how much it costs in order to be 
able to close those gaps.
    That's the most important thing is just to ask the question 
and understand where you came up short, be very honest about 
it, and then just get back in there and do it again.
    Also, in the span of time since the map was first developed 
there may have been additional technologies that have been--
become available or applications or services that could be 
done--where this could be done very cheaply.
    Just one example is we developed a map of our own industry 
in the U.S. We've had this need--it's called 
areweinyourstate.org--and we found that there were over 3,000 
companies in our industry.
    Spread them out, and we organized them by congressional 
district. Now, this was done with manual labor and a great 
outside--a great intern on the inside and a great partner in an 
outside vendor and done at very reasonable cost.
    What's being done here is much more complex, but it just 
shows that the push of service quality means there could be 
ways to close those gaps.
    Mr. Johnson. Mr. Kneuer.
    Mr. Kneuer. Yes. I also think there are--different 
institutions have different incentives to gather this 
information for their own purposes, whether they are commercial 
purposes, different government agencies have different access 
to information, whether it is the--not just the existence of 
service but are there network elements under the control of the 
government that might be useful in providing additional 
services, whether it is fiber links from the Energy Department 
or towers controlled by public safety or natural resource 
agencies.
    So, with a lot of what we've been talking about this 
afternoon, it's NTIA's ability to survey all of those different 
sources of information, whether they are in disparate 
government entities, government agencies, whether they are held 
by the carriers, whether they are held by application providers 
who, for their own commercial interests, have a real monetary 
incentive to figure out where the coverage is and where the 
gaps are, to gather all of that and synthesize that in very 
much the same way.
    It's going to be very much, and I think it is a perfect 
complement to the Office if Internet Growth and Connectivity. 
It is getting access to each of these different constituent 
pieces--sources of funding, sources of information--and 
synthesizing them together so that you don't have these--there 
should be obvious failures if a satellite sees the Northeast of 
the United States the same, right. So those sorts of things.
    By having, collating, overlooking different sources of 
information you can correct those areas.
    Mr. Johnson. Thank you. Ms. Hovis, sorry I didn't get to 
you. But Madam Chair, I will yield back.
    Mrs. Blackburn. The gentleman yields back. Ms. Eshoo, 
you're recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman. I noted that when 
you made your opening statement you spoke about this being a 
bill for rural Americans and I think that we all hope that that 
will really be the result.
    But while this bill provides funding, I think it's 
important to point out that it doesn't direct the agency enough 
on either the authority or the direction on how to use the 
funding to address the needs of Americans in the digital age.
    So we've got our work cut out for us here. I want to thank 
the three witnesses for being here today. I want to thank you 
for your public service.
    This is my 24th year on this subcommittee. It's kind of 
extraordinary for me to use that number. It's hard to believe 
24 years.
    But I think this is the first time in terms of a 
reauthorization act that we don't have the agency represented 
here. I think it's wonderful that you're giving your opinion 
about what you think the agency should do. But I find this to 
be highly unusual.
    Now, I know David Redl was here in March. But I still 
think, Madam Chairwoman, that it's very important and it's 
still really appropriate to be discussing the draft of a 
reauthorization with someone--with a key official--I think 
David Redl--an NTIA official on this.
    So let me get to my questions. But I wanted to point that 
out because it's the first time that I've ever experienced 
this. So it is what it is.
    But I think that we need to make sure that NTIA comes and 
when we have a review with the key person from there.
    So to Mr. Gallagher and Mr. Kneuer, do you know what steps 
the assistant secretary is taking relative to overseeing 
FirstNet and its contract with AT&T?
    Mr. Gallagher. I do not.
    Ms. Eshoo. Do you, Mr. Kneuer?
    Mr. Kneuer. Not with specificity.
    Ms. Eshoo. OK.
    Mr. Kneuer. Just in terms of how the role of NTIA 
overseeing FirstNet, which----
    Ms. Eshoo. Well, we know that they oversee it. I want to 
know--because I think you're here in some way, shape, or form 
to speak for NTIA.
    Do you know what the current NTIA plans are to address the 
gaps between the maps? It says show coverage and the actual 
coverage of high-speed broadband.
    Mr. Kneuer. I do not.
    Ms. Eshoo. Does anyone know?
    Mr. Gallagher. No.
    Ms. Eshoo. No one knows. OK.
    If this authorization were to become the enacted budget for 
NTIA, do you know what portion of the new resources would be 
aimed at improving NTIA's oversight of FirstNet?
    Mr. Gallagher. I do not.
    Ms. Eshoo. Anyone know?
    Mr. Kneuer. No.
    Ms. Eshoo. Maybe to Ms. Hovis--do you know what the 
specific challenges are that NTIA faces in mapping broadband 
coverage accurately today and are they technological?
    Are they methodological, and what do you think that they 
should be doing to get an accurate study?
    Ms. Hovis. My primary concern about the broadband mapping 
is that some of the underlying data is at such a low level of 
granularity that we don't really have anything like an accurate 
picture. The big part----
    Ms. Eshoo. Well, I know that, but I am asking what--do you 
think it's beyond technological or methodological? How are we 
going to get accurate information?
    If we don't have a roadmap, then we don't know where we are 
going and what we are doing.
    Ms. Hovis. The data----
    Ms. Eshoo. That's what a roadmap is. Or the map, in this 
situation--so what do you think the main issue is that we 
should be pursuing?
    Ms. Hovis. From my perspective, the main issue is that the 
data collected by the FCC through the 477 is not giving us 
sufficient information. We are getting----
    Ms. Eshoo. And the source of that lack of being able to get 
it is what? What do you recommend?
    Ms. Hovis. The information is self-reported by the 
providers and it is frequently self-reported at the level of if 
a single location within a census block is served, the entire 
census block can be shown as served, which I sometimes think of 
as allowing my high school daughter to----
    Ms. Eshoo. Well, I remember years ago, in the Bush 
administration, if it was in a zip code then everyone was 
covered, which--this is like Pete and repeat.
    So, well, I'm happy that you all came. Thank you again for 
your service and, Madam Chairwoman, I think that we need the 
assistant secretary to come in and speak about the 
reauthorization. I think that's very important.
    With that, I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mrs. Brooks, you're recognized for 5 minutes.
    Mrs. Brooks. Thank you, Madam Chairwoman. Thank you so much 
to all of our witnesses for being here today.
    Something that we heard about at a earlier NTIA hearing had 
to do with the fact that we are fairly behind the race for 5G 
of South Korea, Japan, and other countries.
    I am curious, Mr. Kneuer, in your opinion, how are we doing 
in the 5G race?
    Mr. Kneuer. I think 5G is in its infancy where it's sort of 
the beginning of the beginning, not even the end of the 
beginning. But I think 5G is sort of the cross-cutting issue 
that answers much of what we've been talking about here.
    For the first time with 5G, wireless applications will give 
the same kinds of speeds and comparable speeds as landline 
applications at a much, much lower cost of deployment and much 
more readily suited to serve hard-to-reach areas.
    So the issues for NTIA around 5G are recognizing that but 
very much it's spectrum to spectrum to spectrum. We need low-
band spectrum. We need mid-band spectrum. We need high-band 
spectrum.
    With all of that, I think the inherent incentives in the 
U.S. economy and in the U.S. telecommunications marketplace 
give us a key advantage over some of the countries that some 
people may look at and say that they're ``leading.``
    If you have got a single carrier or a couple of dominant 
carriers, the U.S. market has been one that has been a massive 
incentive for as much investment in as many carriers as 
possible.
    I think if we repeat those examples and provide the 
spectrum that allows each of our main market participants to 
continue to compete, we will have the most robust and the most 
widespread 5G networks in the world.
    Mrs. Brooks. Does our current discussion draft that we are 
discussing address the issues that you're referring to? I am 
curious that--of each of the panel members.
    Mr. Kneuer. I think the establishment of the Internet 
Connectivity Office will help in identifying where those issues 
are.
    The issues around spectrum in general, which may not be 
specifically called out in this draft but are explicit in the 
reauthorization of the agency and the things that NTIA does, I 
think so.
    Mrs. Brooks. Does anyone else have a different opinion or 
further opinion on 5G?
    Mr. Gallagher.
    Mr. Gallagher. What I would say is I would echo John's 
thoughts--that we are at the very beginning of this--it's way 
too early to declare a winner--and that in the U.S. we have all 
of the elements to be fantastically successful in the 
deployment of 5G.
    When you look at the demand for the services, like, what's 
the extra speed going to mean, we'll be able to translate that 
into economic value a lot faster than other economies around 
the world and that will be the engine that pulls this in a very 
commercial way to worldwide success.
    Mrs. Brooks. Thank you. Ms. Hovis.
    Ms. Hovis. Congresswoman, I think this is incredibly 
important, and I actually just returned a matter of days ago 
from South Korea where I spent a good amount of time looking at 
infrastructure both in the cities and, even more importantly, 
in rural areas.
    And I don't think we are right at the beginning. We have 
not lost anything, and we are well positioned to win the race 
for 5G.
    The one thing that I noted in South Korea that I thought 
was so important is that their rural areas will get better 
wireless and better 5G than our rural areas will because 
there's existing infrastructure there, and that speaks to the 
reauthorization bill and the need for more rural infrastructure 
and fiber for our communities and that is what will enable 5G 
because there will be no wireless without wires to support it.
    Mrs. Brooks. OK. Thank you. Shifting gears a moment to--we 
learned this in dealing with a bill to reauthorize the Poison 
Control Center in our work on opioids out of this committee.
    But I learned about problems relative to our 911 services 
and it caused me to be concerned as to whether or not other 
emergency lines like suicide hotlines, veteran crisis lines, 
apparently, if someone were to call they aren't necessarily--
the centers aren't locating the calls.
    They're taking what area code is showing up on the phone 
rather than geolocating the actual phone.
    I think most people don't assume that's what's happening. 
So while I have a 317 area code here and I were to make a call, 
I would be routed improperly, or it could be.
    Are we going to be fixing issues like this and is NTIA--
what will their role be? If any of you have an opinion on that.
    Mr. Gallagher. What I would offer is that so much of what 
you just described those challenges--they lie in the province 
of the states and how they deploy 9-1-1, and then the FCC and 
its role in overseeing how that works.
    And so it's not in the sweet spot of what NTIA does except 
for ITS, which is the lab that's run by NTIA. They do research 
on these types of things and how to improve accuracy and 
performance.
    Mrs. Brooks. OK. Thank you. I yield back.
    Mrs. Blackburn. The gentlelady yields back. Mr. McNerney, 
you're recognized for 5 minutes.
    Mr. McNerney. I thank the chair. I thank the witnesses.
    I apologize for missing your testimony but you did have 
written statements, which we reviewed beforehand.
    I am concerned about the security risk posed by the vast 
number of devices coming to the market on IOT, and I have 
introduced legislation to improve the security.
    Mr. Gallagher, NTIA's recent botnets report outlines a 
series of goals that are intended to give stakeholders guidance 
on what steps they should be taking to secure their systems 
networks.
    What are specific resources the NTIA needs to ensure that 
meaningful action is taken by its stakeholders?
    Mr. Gallagher. I think, unfortunately, the resources are 
going to be more necessary by those that need to implement the 
recommendations than those that formulated them themselves.
    The Federal Government has had many challenges when it 
comes to implementing its own solutions on a technical basis. 
This is going to require action in the marketplace and by 
manufacturers and then, ultimately, by consumers to make sure 
that their behavior reinforces the values in those reports.
    Mr. McNerney. Thank you. Mr. Kneuer, the NTIA has held a 
series of multi-stakeholder meetings on IOT security 
upgradeability and patching. The most recent one was held last 
November.
    Are you aware of what progress the NTIA has made with this 
multi-stakeholder process since November?
    Mr. Kneuer. I am not familiar with the details of that 
particular multi-stakeholder process. But it is indicative of 
the contribution that NTIA can make as sort of standing as an 
intersection between having lots of communication with the 
market participants and the commercial entities and, at the 
same time, having visibility through their contacts with the 
national security intel Homeland Security agencies where they 
can serve as a conduit of sort of identifying threats, passing 
information back and forth, and serving that sort of a 
function.
    Mr. McNerney. OK. Mr. Gallagher, you're shaking your head 
yes?
    Mr. Gallagher. Well, I am just agreeing with John.
    Mr. McNerney. OK. Well, as an engineer, I think it's 
important that the agencies principally responsible for 
advising the President on telecommunications and information 
policy be equipped with the technical expertise needed to 
develop policy.
    Mr. Gallagher, how many engineers does the NTIA currently 
employ?
    Mr. Gallagher. I don't know the answer to that.
    Mr. McNerney. Well, earlier this month before the Senate 
Committee on Commerce, Administrator Redl said that, ``I 
believe the greatest challenge for advancing IOT will be 
cybersecurity.``
    How many engineers does NTIA have on staff that would 
specifically work on cybersecurity?
    Mr. Gallagher. Again, that's specific information. I am 
sure it's available from other sources but I don't have it.
    Mr. McNerney. Mr. Kneuer, in reauthorizing the NTIA, it's 
critical that we understand what resources the agency currently 
allocates toward technical expertise and I am hoping that you 
might be able to provide me with more specific answers for the 
questions that I just asked Mr. Gallagher.
    How many engineers specifically focus on IOT security?
    Mr. Kneuer. So I don't have visibility into the number of 
engineers assigned right now. When Mike and I were there, there 
was something like 180 engineers in the agency.
    But I think what is important is that NTIA's access to 
technical expertise is not limited to its in-staff resources. 
So there are vast resources that NIST, which is the flagship 
government technical agency--there are resources within the 
NSA. There are resources within the Defense Department that 
they're able to access, as I've said, when they--and then share 
that information with the commercial sector and also help 
identify vulnerabilities and events that are taking place in 
the commercial environment, and communicating that into the 
broader government-wide effort, and I think it's going to have 
to be a government-wide effort. This won't be an NTIA only 
solution.
    Mr. McNerney. Well, OK. I will grant you that.
    Unfortunately, NTIA doesn't have anyone here today. So we 
can't really get enough visibility to determine if they have 
the resources that they need.
    Ms. Hovis, could you discuss the importance of the public-
private partnerships in rural and underserved broadband 
deployment? I have a lot of that in my district.
    Ms. Hovis. Well, at its core, a public-private partnership 
helps to change the economics of broadband in an area where the 
economics simply don't work.
    Ideally, there would be private sector investment 
everywhere and there would be rationale and economic viability 
for private sector investment.
    But that's, unfortunately, not how infrastructure works of 
any sort, particularly in rural areas, and there are simply 
going to need to be places where the public sector has a 
significant role.
    The places where that's been most successful there has been 
collaboration between public and private, and frequently, 
efforts on the public sector side at the Federal, state, and 
local levels to collaborate with the private sector to solve 
these problems and to improve the economics of the build out.
    Mr. McNerney. Thank you. I guess I better yield back.
    Mrs. Blackburn. The gentleman yields back. Mr. Costello, 
you're recognized for 5 minutes.
    Mr. Kneuer. Sure, and with regards to the specific case 
that was an enforcement action, not surprised that NTIA wasn't 
specifically involved in that part of the negotiation.
    But I think NTIA does sort of sit in the middle of the 
intersection of national security and our communications 
networks.
    It would be a partner with other agencies within the 
Department of Commerce, the Bureau of Industry and Security, 
which has a specific mission to look after cross-border trade 
and technology that involves our national security--the 
International Trade Administration, which is responsible for 
our international trade commitments, but most importantly and, 
I think, most relevant, as the agency that has direct contact 
with the carrier set that is relying on these network elements 
that may be subject to vulnerabilities.
    So its policy coordinating function through its natural 
interface with the defense, intelligence, and homeland security 
agencies with the national security inside the White House and 
with its counterparts inside the Commerce Department. So----
    Mr. Costello. So you, likewise, agree that having NTIA lead 
an interagency effort to strategically share supply chain 
threat information with the private sector should be one of its 
core competencies?
    Mr. Kneuer. Yes.
    Mr. Costello. Mr. Gallagher, in your testimony you touched 
upon the benefits of increased unlicensed spectrum use and 
successful spectrum sharing in the 5 gigahertz band, starting 
in 2003.
    Can you expand on that example and talk about some of the 
future benefits of unlicensed spectrum use in the context of 5G 
deployment?
    Also, in your opinion, what, if anything, should Congress 
do to leverage NTIA's expertise and role in unlicensed spectrum 
use?
    Mr. Gallagher. So unlicensed spectrum has been one of the 
gold mines of our tech economy over the last 15 years. If you 
look at wi-fi and how pervasively we use it in our homes and 
our businesses, it's been just a powerhouse of very, very 
cheap, very efficient transmission of data.
    Now, ultimately, all of that ties back to a fiber 
architecture and gets transmitted over more robust networks. 
But the promise of unlicensed has been proven to be very, very 
true and very real.
    So finding more of that it makes great sense because if you 
have encountered the interference in your home from multiple 
devices, as we all carry more and more of them, we access 
richer and richer services, it does put a load on those and 
there is a potential for interference.
    So more of that type of spectrum will continue to feed the 
growth in that area, lowers the burden on our license services.
    I think the aspiration of unlicensed that we have yet to 
achieve is I would call carrier class unlicensed spectrum use 
where you would have, basically, the quality of a licensed 
service done in an unlicensed way.
    That remains something that's out of reach at the moment. 
It hasn't really been delivered yet in the marketplace.
    In the times when John and I were serving it looked like 
that was going to happen, and it hasn't really come to 
fruition. But that's an area of further explanation.
    Mrs. Blackburn. The gentleman yields back.
     Mr. Butterfield, you're recognized for 5 minutes.
    Mr. Butterfield. Thank you very much, Madam Chairman, and 
thank you to the three witnesses for your testimony today.
    We have votes around 3:15 and so I am going go cut mine 
short and not go through the full 5 minutes, Madam Chairman. 
But let me just ask the three witnesses, I am from a rural low 
income community in eastern North Carolina and I think we can 
all agree that we have a digital divide in this country.
    It's no question that affluent developed communities have 
broadband. Low income rural communities, many of them, do not.
    Can you just tell me, each of you, in your own words in 
plain English why we have this digital divide and what we can 
do to bridge this divide and bring it to an end in my lifetime?
    Ms. Hovis. Congressman, I think you articulated the problem 
exactly right. The challenges that private investment goes--it 
follows the money and where the opportunity is and we need to 
build bridges in terms of investment and funding at the state, 
local, and federal level to support private investment and to 
add to it and to make it economically viable and interesting 
for the private sector to support markets where they might not 
otherwise go and to make it possible for other entities to 
provide services in those markets where the private sector may 
choose not to go and that, in my opinion, should include 
counties and municipalities and nonprofit and public-private 
partnerships and collaborations because we need to use every 
tool in the toolbox if we are going to bridge those gaps.
    Mr. Kneuer. I will just keep banging on the 5G drum for a 
minute. There is the reality of the economic return, based on 
the cost of the deployment of the networks. In the very high 
cost for hard-to-serve areas, the economic incentive breaks 
down on delivering service to those areas.
    As 5G becomes a reality, that economic equation will change 
dramatically and I think we have a promise of wireless networks 
closing dramatically the gaps that would need to be filled by 
the kinds of public and private partnerships and by government 
support.
    Mr. Gallagher. And I would just add my voice to the 
solution will be wireless. It will be a lot lower cost per 
person or per unit of data than what has been deployed in the 
past.
    The technology has come to this stage where now we carry 
devices in our pockets that 5 years ago would have cost tens of 
thousands of dollars.
    Now, there are new versions coming out every year. Flat 
screen TVs used to be ridiculously expensive. They're now 
borderline disposable, and these types of end of the network 
uses for broadband--they've brought down the cost in the home 
for those that need the service in rural areas as well as in 
the networks themselves.
    So as we continue to get better and better at better 
technologies, richer technologies, lower cost devices on the 
other end, it'll help close that gap.
    Mr. Butterfield. All three of you agree 5G is the future?
    Ms. Hovis. If I may add, Congressman.
    Mr. Butterfield. Yes.
    Ms. Hovis. I very much agree with my colleagues here. We 
are all extremely optimistic about the wireless future. But 
there is no rural wireless without a wire to support that 
wireless service and that means we can't just say, well, we 
don't have to worry about wired infrastructure in rural areas 
because wireless will take care of it.
    That wireless component is only the very end of the network 
and if we are going to give folks in rural communities the 
kinds of services that we all expect every day in our urban 
communities, we are going to have to make sure that wire is 
there to support next-generation wireless deployment, and we've 
got a long way to go on that.
    Mr. Butterfield. Thank you.
    Mr. Gallagher. I would just amend by saying wireless back 
haul is in service now and is a step toward helping close that 
gap that exists on the wired space.
    Mr. Butterfield. OK. All right. Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back. Mr. Guthrie, 
you're recognized.
    Mr. Guthrie. Thank you. Thank you very much, and I will be 
brief too because I know we have at least another question over 
here.
    So, many counties regionalised their dispatch centers, and 
not only does it allow for pooled technical resources--9-1-1 
services is what I am talking about--it also provides for the 
redundancies in the system so that if one county dispatch 
center shuts down, the other can cover for them because they 
share the same equipment.
    As we work for further deployment of NG 9-1-1, how can NTIA 
work to support the ongoing and future initiatives of these 
regional dispatch centers.
    I will just open it to anyone. Does any----
    Mr. Gallagher. The first thing I would say is convening, 
and that's a very strong power of NTIA historically is bring 
people together to share best practices so that as the public 
safety law enforcement network responsible leaders, when they 
get together they're able to see that there's a cheaper and 
better way of doing something, they learn that from one 
another.
    The other, again I would point to is ITS as NTIA does do 
research on the telecommunications services themselves and 
potentially could assist in formulating lower cost ways or more 
robust ways of providing the same service.
    Mr. Guthrie. OK. And I know there's been discussion in 
elevating the NTIA administrator to an under secretary, and 
somebody else may ask more about that.
    So but I want to focus on if the elevation of the title 
adds to what we may call gravitas, internationally, what would 
it do interagency for the deployment of Federal spectrum and 
auctioning Federal spectrum?
    Mr. Kneuer. I think it's directionally helpful. As a 
practical matter, NTIA functions inside the department as an 
under secretary already. There's no layer in between NTIA and 
the secretary.
    Typically, an assistant secretary might report to an 
undersecretary, who then reports to the secretary of commerce. 
NTIA actually has one step elevated stature in that it also 
reports dotted line directly to the President.
    So in terms of the governance, it's functioning as an under 
secretary already. But in terms of protocol and interagency 
negotiations, if you're synced up with an assistant secretary 
at the Defense Department who then is talking to an under 
secretary before they get to the secretary, it's just one more 
layer in between.
    So I think there is, it would be directionally helpful 
inside managing the interagency process and it would more 
accurately reflect where the agency sits within the department 
by making an under secretary.
    Mr. Guthrie. So thanks.
    And then really quick also, mapping. I know we've talked 
about mapping and it's been addressed. But I would like to 
share my support for more granular mapping that's been talked 
about and better data and better verification as well.
    Do you have suggestions for improving verification 
strategies? I know you have talked a little bit earlier. I know 
I was in and out with another meeting, Ms. Hovis, if you----
    Ms. Hovis. I don't know how this happens, but I think 
that--wherever I travel I speak to stakeholders and officials 
in rural communities who say to me, why is the map showing us 
as served when we know we are not served, and there needs to be 
some kind of formal mechanism for feedback and opportunity to 
challenge the map where it's not accurate and resources for the 
map then to be corrected because I understand it's expensive 
and difficult for providers to provide certain kinds of data.
    But the rural communities, the rural businesses that are 
suffering from the fact that the map has not got accurate data 
and therefore they're not eligible for certain kinds of 
programs or certain kinds of support at the state and Federal 
level. Very, very frustrating for them, and it is the Federal 
Government that is putting this data together.
    Mr. Guthrie. Well, that's important, too, because my area 
it has rural areas you just look at and say you know there's 
issues that need to be addressed. My home town is Bowling 
Green, which is kind of tied in with our chairwoman's 
community--boom town of Nashville. We are a boom town as well.
    And you hear from people who are developing and trying to 
accommodate the growth and stuff moving forward is that a lot 
of people won't want to move into certain neighborhoods or they 
can't develop areas because there's no profit. If you're going 
to build a nice home you're moving in you want access to 
broadband.
    So that's limiting what can happen. But if you look at a 
map, you would say that Warren County, that has gone from 
70,000 to 125,000 in the last 20 years, would be served.
    But it depends on where you live, and so that's what's 
important. And I was going to not use all my time but I almost 
did.
    I yield back.
    [Laughter.]
    Mrs. Blackburn. The gentleman yields back. Mr. Shimkus, 
you're recognized.
    Mr. Shimkus. Thank you, Madam Chairman. Great hearing. It's 
good to see you all again.
    I am going to start really following up on my colleague, 
Mr. Guthrie's question on the under secretary debate and is--
because you talked--Mr. Kneuer, you talked internally.
    Let's talk externally. We've been involved in the NATO 
parliamentary assembly. I do some stuff in the Baltic regions. 
Titles matter internationally.
    Anyone want to comment on a title change just for the 
international aspects of what NTIA has to do?
    Mr. Kneuer. Yes. I think it's more relevant in the 
international context than in the interagency domestically. We 
can sort of manage that here.
    In my experience traveling, they were very confused by the 
NTIA role and the title, are you the minister of 
communications, which in foreign countries could be one of the 
leaders of the cabinet, right.
    So some clarity with an under secretary helps them 
understand it. It gives commonality with our counterparts in 
the State Department who travel internationally. There's more 
of a clarity of what the role is.
    So I think the elevation of the title actually probably 
carries a little bit more currency in international 
negotiations than it does--you can manage it here. You just 
have to----
    Mr. Shimkus. Right. Mr. Gallagher, you seem to be shaking 
your head. Do you agree with that analysis?
    Mr. Gallagher. Yes. I think 90 percent of the benefit of 
this is coming in the international arena and it comes from 
respect from the foreign delegations.
    It's very important for us to keep in mind that they don't 
have the turnover we do. Our political system--we move through 
political appointees. There, they tend to be there for very 
long periods of time.
    The title helps cut through that gap and experience.
    Mr. Shimkus. Great. Thank you. And I want to focus on a 
part of the discussion draft, which is WHOIS database, and I--
many of you follow me. I was involved with the IANA on 
transition and ICANN debate, and there was kind of a commitment 
during that discussion that the WHOIS database would continue.
    Now, throw in the uncertainty with the European Union and 
the general data protection regulation.
    Can you talk to me about the importance of keeping the 
WHOIS database and this European concern and how we crunch 
through this?
    Mr. Gallagher.
    Mr. Gallagher. It's absolutely vital that the WHOIS 
database is taken very seriously and continues to have the 
emphasis that it has had for a very long period of time.
    In virtually every bilateral meeting that I had or any 
other international meeting, the Department of Justice, 
Department of Homeland Security, the intelligence community, 
the White House all the way through made sure it was always on 
our agenda at NTIA to underscore the importance of WHOIS.
    That's paramount that that continue, even with any conflict 
with the GDPR. The conflict is something that is misplaced if 
that's the way it's perceived.
    The mission of WHOIS to intellectual property holders, law 
enforcement, is paramount to whatever those concerns might be 
about individual privacy.
    Mr. Shimkus. Anyone else want to chime in on that?
    Mr. Kneuer. I think there is no separation anywhere in the 
USG and, I even think, at ICANN with regards to the importance 
of WHOIS and the commitment to collect reliable publicly 
accessible WHOIS data.
    This conflict of laws with the GDPR, I think WHOIS is going 
to be sort of the pointy end of the spear on that. There are 
lots and lots of different places where the GDPR is running 
into conflicts of law.
    So I think this is going to be an exercise we are going to 
have to undertake. I think NTIA remains well suited to be the 
U.S. point in working with ICANN, protecting that, and if it 
turns out that there needs to be a U.S. legal solution to 
clarify and supersede the GDPR, that's something that they can 
consider as well.
    Mr. Shimkus. Thank you, and I want to submit for the record 
the Coalition for a Secure and Transparent Internet to the 
record.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And I will just end on I sent a letter along 
with Congressman Ruiz to GoDaddy highlighting and fleshing this 
out either.
    So it's very important and I appreciate your answers and 
look forward to having that part of the language.
    And I yield back.
    Mrs. Blackburn. The gentleman yields back.
    And Mr. Welch has no questions or comments. We are 
delighted that he's here. We should ask him where he was in 
1992, the last time Congress did this.
    Well, seeing that there are no further members wishing to 
ask questions for the panel, I want to thank each of you for 
being here today and for helping us.
    As you can see, there is broad bipartisan agreement on 
moving forward with the rural broadband and with NTIA--their 
participation, and so we thank you for your insight.
    Before we conclude, I ask unanimous consent to enter the 
following documents into the record: a letter from NTIA, a 
Politico article, ``Wired to Fail,`` a letter to me from 
organizations fighting human trafficking, a letter from CCIA--
that is offered by Mr. Lance--a letter from CSTI, offered by 
Mr. Shimkus, ESA's court filing, offered by Mr. Doyle, the 
Shimkus-Ruiz letter regarding WHOIS and the database.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Pursuant to committee rules, all members 
are reminded that they have 10 business days in which to submit 
additional questions, and we would ask each of you--our 
witnesses--to respond within 10 business days.
    Seeing there is no further business to come before the 
committee, the subcommittee is adjourned.
    [Whereupon, at 3:23 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
